Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




  KANSAS STATE MEDICAID
   FRAUD CONTROL UNIT:
    2012 ONSITE REVIEW




                        Stuart Wright
                  Deputy Inspector General for
                   Evaluation and Inspections

                       September 2012
                       OEI-07-12-00200
EXECUTIVE SUMMARY:
KANSAS STATE MEDICAID FRAUD CONTROL UNIT:
2012 ONSITE REVIEW
OEI-07-11-00200


WHY WE DID THIS STUDY

OIG oversees all Medicaid Fraud Control Units (MFCU or Unit) with respect to Federal
grant compliance. As part of this oversight, OIG reviews all Units. These reviews assess
Unit performance in accordance with the 12 MFCU performance standards and monitor
Unit compliance with Federal grant requirements. This is a review of the Kansas Unit.

HOW WE DID THIS STUDY

We analyzed data from seven sources: (1) a review of policies, procedures, and
documentation of the Unit’s operations, staffing, and caseload; (2) a review of financial
documentation; (3) structured interviews with key stakeholders; (4) a survey of Unit staff;
(5) structured interviews with the Unit’s management; (6) an onsite review of case files;
and (7) an onsite review of Unit operations.

WHAT WE FOUND

For fiscal years (FY) 2009 through 2011, the Unit reported combined civil and criminal
recoveries of nearly $66 million and 44 convictions. The Unit increased referrals through
education and outreach efforts. We found no evidence of significant noncompliance with
applicable laws, regulations, or policy transmittals. However, we found opportunities for
improvement and instances in which the Unit did not fully meet the performance
standards. Specifically, for FYs 2009 and 2010, the Unit had several internal control
weaknesses and inadequate policies and procedures related to certain expenditures. For
FYs 2009 through 2011, the Unit did not report the identities of all convicted providers to
OIG within 30 days of sentencing for the purpose of program exclusion. The Unit also
did not establish annual training plans for its professional disciplines. Finally, case files
had inconsistent documentation of supervisory approval for key stages of investigations,
yet cases generally proceeded timely.

WHAT WE RECOMMEND

Based on these findings, the Kansas Unit should: (1) develop policies and procedures to
address internal control weaknesses; (2) develop a protocol to ensure identities of
convicted providers are reported to OIG; (3) establish annual training plans for
professional disciplines; and (4) ensure that all case files contain opening and closing
investigative memoranda, documented supervisory approval, and documented periodic
supervisory reviews. The Kansas Unit concurred with all four of our recommendations.
TABLE OF CONTENTS

Objective ......................................................................................................1
Background ..................................................................................................1
Methodology ................................................................................................4
Findings........................................................................................................7
           For FYs 2009 through 2011, the Unit reported combined civil
           and criminal recoveries of nearly $66 million and 44 convictions ..7
           For FYs 2009 and 2010, the Unit had several internal control
           weaknesses and inadequate policies and procedures related to
           certain expenditures .........................................................................8
           The Unit did not report the identities of all convicted providers to
           OIG within 30 days of sentencing for the purpose of program
           exclusion ..........................................................................................8
           The Unit did not establish annual training plans for its
           professional disciplines ....................................................................9
           Case files had inconsistent documentation of supervisory
           approval for key stages of investigations, yet cases generally
           proceeded timely ............................................................................10
Conclusion and Recommendations ............................................................ 11
           Unit Comments and Office of Inspector General Response .......... 11
Appendixes ................................................................................................13
           A: Performance Standards ............................................................13
           B: Population and Sample Distribution of Case Files Open Any
           Time During FYs 2009 Through 2011 ...........................................17
           C: Investigations Opened and Closed by Provider Category
           for Fiscal Years 2009 Through 2011 ..............................................18
           D: Medicaid Fraud Control Unit Referrals by Provider Category
           for Fiscal Years 2009 Through 2011 ..............................................20
           E: Expanded Information on Internal Control Weaknesses
           and Inadequate Policies and Procedures Related to Certain
           Expenditures ..................................................................................21
           F: Point Estimates and Confidence Intervals Based on Case
           File Reviews...................................................................................24
          G: Unit Comments ........................................................................25
Acknowledgments......................................................................................35
               OBJECTIVE
               To conduct an onsite review of the Kansas State Medicaid Fraud Control
               Unit (MFCU or Unit).

               BACKGROUND
               The mission of State MFCUs, as established by Federal statute, is to
               investigate and prosecute Medicaid provider fraud and patient abuse and
               neglect under State law. 1 Under the Medicaid statute, each State must
               maintain a certified Unit unless the Secretary of Health & Human Services
               (HHS) determines that operation of a Unit would not be cost-effective
               because (1) minimal Medicaid fraud exists in that State; and (2) the State
               has other, adequate safeguards to protect Medicaid beneficiaries from
               abuse and neglect. 2 Currently, 49 States and the District of Columbia
               (States) have created such Units. 3 In fiscal year (FY) 2011, combined
               Federal and State grant expenditures for the Units totaled $208.6 million,
               and Units employed 1,833 individuals. 4
               Each Unit must employ an interdisciplinary staff that consists of at least an
               investigator, an auditor, and an attorney to carry out its duties and
               responsibilities in an effective and efficient manner. 5 Unit staff review
               complaints provided by the State Medicaid agency and other sources and
               determines their potential for criminal prosecution. In FY 2011, the
               50 Units collectively reported 1,230 convictions and 906 civil settlements
               or judgments. 6 That year, the Units reported recoveries of approximately
               $1.7 billion.7
               Units are required to have either statewide authority to prosecute cases or
               formal procedures to refer suspected criminal violations to an office with
               such authority. 8 In Kansas and 42 other States, the Units are located


               1
                 Social Security Act (SSA) § 1903(q)(3).
               2
                 SSA §§ 1902(a)(61) and 1903(q)(3). Regulations at 42 CFR § 1007.11(b)(1) add that the
               Unit’s responsibilities may include reviewing complaints of misappropriation of patients’
               private funds in residential health care facilities.
               3
                 North Dakota and the territories of American Samoa, Guam, the Northern Mariana Islands,
               Puerto Rico, and the U.S. Virgin Islands have not established Units.
               4 All FY references in this report are based on the Federal FY (October 1 through
               September 30).
               5
                 SSA § 1903(q)(6) and 42 CFR § 1007.13.
               6
                 Office of Inspector General (OIG), State Medicaid Fraud Control Units Fiscal Year
               2011 Grant Expenditures and Statistics. Accessed at http://oig.hhs.gov/fraud/medicaid-fraud-
               control-units-mfcu/ on April 16, 2012.
               7
                 Ibid.
               8
                 SSA § 1903(q)(1).



Kansas State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00200)                            1
               within offices of State Attorneys General; in the remaining 7 States, the
               Units are located in other State agencies. 9 Generally, Units outside of the
               Attorneys General offices must refer cases to other offices with
               prosecutorial authority.
               Each Unit must be a single, identifiable entity of State government,
               distinct from the single State Medicaid agency, and each Unit must
               develop a formal agreement (i.e., a memorandum of understanding) that
               describes the Unit’s relationship with that agency. 10
               Oversight of the MFCU Program
               The Secretary of HHS delegated to OIG the authority both to annually
               certify the Units and to administer grant awards to reimburse States for a
               percentage of their costs of operating certified Units. 11 All Units are
               currently funded by the Federal Government on a 75-percent matching basis,
               with the States contributing the remaining 25 percent. 12 To receive Federal
               reimbursement, each Unit must submit an application to OIG. 13
               OIG reviews the application and notifies the Unit if it is approved and the
               Unit is certified. Approval and certification are for a 1-year period; the Unit
               must be recertified each year thereafter. 14
               Under the Medicaid statute, States must operate Units that effectively carry
               out their statutory functions and meet program requirements. 15 OIG
               developed and issued 12 performance standards to define the criteria it
               applies in assessing whether a Unit is effectively carrying out statutory
               functions and meeting program requirements. 16 Examples of criteria include
               maintaining an adequate caseload through referrals from several sources,
               maintaining an annual training plan for all professional disciplines, and
               establishing policy and procedure manuals to reflect the Unit’s operations.
               See Appendix A for a complete list of the performance standards.


               9
                 The Units share responsibility for protecting the integrity of the Medicaid program with the
               section of the State Medicaid agency that functions as the Program Integrity Unit. Some
               States also employ a Medicaid Inspector General who conducts and coordinates fraud, waste,
               and abuse activities for the State agency.
               10
                  SSA § 1903(q)(2); 42 CFR §§ 1007.5 and 1007.9(d).
               11
                  The portion of funds reimbursed to States by the Federal Government for its share of
               expenditures for the Federal Medicaid program, including the MFCUs, is called Federal
               Financial Participation.
               12
                  SSA § 1903(a)(6)(B).
               13
                  42 CFR § 1007.15(a).
               14
                  42 CFR § 1007.15(b) and (c).
               15
                  SSA § 1902(a)(61).
               16
                  59 Fed. Reg. 49080 (Sept. 26, 1994). Accessed at http://oig.hhs.gov on
               November 22, 2011. Note that OIG published revised performance standards on June 1, 2012.
               (See 77 Fed. Reg. 32645.) The standards referred to in this report are from 1994 and were in
               effect at the time of our review.


Kansas State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00200)                             2
               Kansas State MFCU
               The Attorney General’s Medicaid Fraud and Abuse Division acts as the
               MFCU for the State of Kansas. 17 It has authority to prosecute Medicaid
               fraud and cases of patient abuse and neglect. At the time of our review,
               the Unit’s 15 employees were located in the State capital of Topeka. 18 For
               FY 2011, the Kansas Unit was authorized to receive $1.2 million in
               Federal funds (with a State match of $400,000), but expended just under
               $1 million in Federal funds. 19 Total Medicaid expenditures in Kansas
               increased from $2.4 billion in FY 2009 to $2.8 billion in FY 2011. 20
               For FYs 2009 through 2011, the Unit received an average of 132 fraud
               referrals each year. The Unit also reviews every complaint received by
               the Kansas Department on Aging (KDOA) regarding potential abuse,
               neglect, or exploitation occurring in health care facilities, as well as
               reports from consumers or the public. 21 During FY 2011, the Unit
               reviewed 4,979 complaints that were received by KDOA. 22
               Upon receipt of a Medicaid fraud referral, an analyst is assigned to
               determine whether criminal or civil liability exists. The analyst forwards a
               recommendation memo to the Unit’s Special Agent in Charge (SAC), who
               in turn forwards his or her recommendation to the Unit Director. Upon
               determining that a referral merits a full investigation, the SAC assigns an
               investigator and the Director assigns an attorney(s) and an analyst.
               Previous Review
               In 2007, OIG conducted an onsite review of the Kansas Unit and found that:
               (1) the Unit lacked consistency in its investigative case files and did not have
               standardized policies and procedures for creating and maintaining case files;
               (2) the Unit did not routinely include opening, interim, or closing
               investigative memorandums in official files; (3) the Unit’s case files did not
               contain an index identifying the information contained within each case file;
               (4) final dispositions of investigations were not noted in case files and Unit
               case files remained open indefinitely; (5) the Unit did not have any
               complaint, intake, or referral forms or documentation that identified specific
               complaint(s) or allegation(s) or the source of the information; and (6) the
               Unit initiated an open, active investigation for every complaint, referral, or

               17
                  Kansas Attorney General’s Medicaid Fraud and Abuse Division Annual Report 2010–11.
               Accessed at http://www.ag.ks.gov on September 13, 2012.
               18
                  Our onsite review occurred in April 2012.
               19
                  OIG analysis of State form SF-425 for FY 2011.
               20
                  Medicaid Fraud Control Units FY2011 Statistical Chart. Accessed at http://oig.hhs.gov/ on
               March 1, 2012.
               21
                  Kansas Attorney General’s Medicaid Fraud and Abuse Division Annual Report 2010–11.
               22
                  All KDOA complaints are referred to local law enforcement and county prosecutors. The
               Unit determined that none of the 4,979 complaints merited further investigation.


Kansas State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00200)                            3
               allegation received, resulting in each investigator having approximately
               61 open investigative cases, which may have been too burdensome to allow
               investigators to effectively and efficiently manage their caseload.
               As part of the 2007 onsite review, OIG recommended that the Kansas Unit
               (1) develop and implement standardized policies and procedures for creating
               and maintaining investigative case files; (2) incorporate opening, interim,
               and closing investigative memorandums in case files; (3) develop and
               implement a case file index listing all documents contained within the case
               file to allow easy identification and access by staff; (4) close case files upon
               final adjudication of the case or determine an appropriate timeframe after
               final adjudication to close the official case file; (5) ensure that original
               complaint, intake, or referral documents are part of the official investigative
               case file; and (6) conduct preliminary investigations into all complaints,
               referrals, or allegations for a specified period and determine whether an
               active, open investigation should be initiated, develop minimum
               requirements for opening an investigative case, and prioritize investigative
               bases based on their merit.
               The present onsite review found no evidence that issues related to findings
               1, 3, 4, 5, or 6 continue to occur.

               METHODOLOGY
               Our review covered the 3-year period of FYs 2009 through 2011. We
               analyzed data from seven sources: (1) a review of policies, procedures,
               and documentation of the Unit’s operations, staffing, and caseload for
               FYs 2009 through 2011; (2) a review of financial documentation for
               FYs 2009 through 2011; (3) structured interviews with key stakeholders;
               (4) a survey of Unit staff; (5) structured interviews with the Unit’s
               management; (6) an onsite review of case files that were open in
               FYs 2009 through 2011; and (7) an onsite review of Unit operations. If
               interview and survey respondents provided information that fell outside of
               our 3-year review period, we used it to explain further the results of our
               analyses covering FYs 2009 through 2011.
               We analyzed data from all seven sources to describe the caseload and
               assess the performance of the Unit. We also analyzed the data to identify
               any opportunities for improvement and any instances in which the Unit
               did not fully meet the performance standards or was not operating in
               accordance with laws, regulations, and policy transmittals. 23



               23
                  All relevant regulations, statutes, and policy transmittals are available online at
               http://oig.hhs.gov.



Kansas State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00200)                          4
               Data Collection and Analysis
               Review of Unit Documentation. We reviewed policies, procedures, and
               documentation of the Unit’s operations, staffing, and cases, including its
               annual reports, quarterly statistical reports, and responses to recertification
               questionnaires. We also reviewed the Unit’s data describing how it
               detects, investigates, and prosecutes Medicaid cases. Data collected
               included the number of referrals received by the Unit and the number of
               investigations opened and closed.
               Review of Financial Documentation. We reviewed Unit policies and
               procedures related to budgeting, accounting systems, cash management,
               procurement, property, and personnel to evaluate internal controls and
               design our tests for financial documentation. We reviewed the Unit’s
               claimed $3,793,846 ($2,834,019 Federal share) in grant expenditures for
               FYs 2009 through 2011 to: (1) review final Federal Status Reports and
               the supporting documentation, (2) purposively select and review
               transactions within direct cost categories to determine whether costs were
               allowable, and (3) verify that indirect costs were accurately computed
               using the approved indirect cost rate. We reviewed records from the
               Payment Management System to identify unusual patterns of drawn-down
               amounts. Finally, we reviewed revenue accounts to identify program
               income amounts.
               Interviews With Key Stakeholders. We conducted structured interviews
               with key stakeholders who were familiar with the operations of the Unit.
               Specifically, we interviewed the General Counsel of Social Rehabilitation
               Services (SRS) 24; the Director of KDOA; the Assistant Chief Counsel of
               Kansas’ Department of Health and Environment, Division of Health Care
               Finance (DHCF); and staff from the DHCF OIG. Additionally, we
               interviewed the SAC in HHS OIG’s Kansas City region, as well as a
               Special Agent from the HHS OIG’s Wichita field office. These interviews
               focused on the Unit’s interaction with external agencies.
               Survey of Unit Staff. We administered an electronic survey of all
               nonmanagerial Unit staff. We requested and received responses from
               13 nonmanagerial staff members, for a 100-percent response rate. Our
               questions focused on operations of the Unit, opportunities for
               improvement, and practices that contributed to the efficiency and
               effectiveness of Unit operations and/or performance. The survey also
               sought information about the Unit’s compliance with applicable laws and
               regulations.



               24
                    As of February 2012, SRS is called the Department for Children and Families.



Kansas State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00200)                     5
               Interviews With Unit Management and Staff. We conducted structured
               interviews with the Unit Director and SAC (Chief Investigator). We also
               met with the individual who executes the budget. We asked these
               managers to provide us with additional information to better illustrate the
               Unit’s operations, identify opportunities for improvement, identify
               practices that contributed to the efficiency and effectiveness of Unit
               operations and/or performance, and clarify information obtained from
               other data sources.
               Onsite Review of Case Files. We selected a simple random sample of
               100 case files from the 449 cases that were open at some point during
               FYs 2009 through 2011, the most recent complete FYs at the start of our
               review. We reviewed all of these sampled case files for documentation of
               supervisory approval for the opening and closing of cases, documented
               periodic supervisory reviews, timeliness of case development, and the
               Unit’s processes for monitoring the status and outcomes of cases. From
               these 100 case files, we selected a further random sample of 50 files for a
               more in-depth review of selected issues, such as the timeliness of
               investigations and case development. See Appendix B for a distribution of
               case files from the population and sample.
               Onsite Review of Unit Operations. While onsite, we reviewed the Unit’s
               operations. Specifically, we observed intake of referrals, data analysis
               operations, security of data and case files, and the general functioning of
               the Unit.
               Limitations
               We limited our internal control review to the Unit’s procedures related to
               accounting, budgeting, personnel, procurement, and property and
               equipment.
               Standards
               This study was conducted in accordance with the Quality Standards for
               Inspection and Evaluation issued by the Council of the Inspectors General
               on Integrity and Efficiency.




Kansas State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00200)               6
               FINDINGS
               For FYs 2009 through 2011, the Unit reported
               combined civil and criminal recoveries of nearly
               $66 million and 44 convictions
               The Unit reported combined criminal and civil recoveries of nearly
               $66 million for FYs 2009 through 2011, increasing from $19 million in
               FY 2009 to $25 million in FY 2011 (see Table 1). Criminal recoveries
               declined from $4.1 million in 2009 to slightly under $1 million in 2011,
               while civil recoveries increased from $15 million to $24 million during the
               same period. The Unit closed 265 investigations and obtained 44 criminal
               convictions during the review period, along with 4 dismissals and
               1 acquittal. See Appendix C for details on investigations opened and
               closed by provider category for FYs 2009 through 2011.
               Table 1: Kansas MFCU Recovered Funds, FYs 2009 Through 2011

                                                                                                      3-Year
                Data Element Description            FY 2009         FY 2010         FY 2011
                                                                                                       Total

                Reported Criminal
                                                  $4,102,312       $240,193        $926,986      $5,269,491
                Recoveries


                Reported Civil Recoveries       $14,856,538     $21,551,436     $23,910,671     $60,318,645


                   Total                        $18,958,850     $21,791,629     $24,837,657     $65,588,136


                Source: OIG analysis of Kansas Unit Quarterly Statistical Reports, FYs 2009 through 2011.


               The Unit increased referrals through education and outreach
               efforts
               The Unit reported 121 referrals in FY 2009, 46 in FY 2010, and 230 in
               FY 2011. Referrals from private citizens to the Unit represented the
               largest increase in share of referrals. These referrals increased from 25 in
               FY 2009 to 29 in FY 2010 and to 79 in FY 2011. Unit management
               attributed the recent increase to the Unit’s public outreach and education
               efforts. The Unit also reported an overall increase in referrals from State
               agencies (39 in FY 2009, 11 in FY 2010, and 88 in FY 2011). Unit
               management attributed this increase to the positive professional
               relationships cultivated with external stakeholder agencies. Throughout
               our interviews, staff from external stakeholder agencies, such as SRS,
               DHCF, and KDOA, were highly complimentary of the Unit staffs’
               willingness and ability to maintain effective communication. See
               Appendix D for details on referrals received by provider category for
               FYs 2009 through 2011.



Kansas State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00200)                                 7
               For FYs 2009 and 2010, the Unit had several internal
               control weaknesses and inadequate policies and
               procedures related to certain expenditures
               According to Performance Standard 11, the Unit Director should exercise
               proper fiscal control over the Unit’s resources. During FYs 2009 and
               2010, the majority of the expenditures that the Unit claimed represented
               allowable, allocable, and reasonable costs in accordance with applicable
               Federal requirements. 25 However, the Unit did not always maintain
               adequate internal controls related to accounting, budgeting, personnel,
               procurement, and property and equipment. As a result, expenditures
               claimed for Federal reimbursement could not be reconciled with the
               accounting records and some expenditures claimed for vehicle costs were
               not properly allocated.
               Contrary to Federal regulations, expenditures claimed for Federal
               reimbursement on the SF-269 reports in FYs 2009 and 2010 did not
               reconcile to the Unit’s accounting records. As a result, the Unit
               underclaimed expenditures in FY 2009 by $22,611 ($18,243 Federal
               share) and overclaimed expenditures in FY 2010 by $25,925 ($19,444
               Federal share). The Unit overclaimed expenditures for vehicle
               maintenance in FY 2011 by an estimated $631 ($473 Federal share). In
               addition, the Unit did not claim all allowable costs for fringe benefits and
               indirect costs. The Unit underclaimed fringe benefit expenditures in
               FY 2009 by an estimated $47,982 ($35,986 Federal share). The Unit
               underclaimed indirect costs in FYs 2009 and 2010 by $16,315
               ($12,236 Federal share). The Unit did not have policies and procedures to
               ensure that all allowable expenditures were claimed for Federal
               reimbursement. A Unit official stated that policies and procedures are
               being put in place to ensure that all allowable expenditures are claimed in
               the future. See Appendix E for a comprehensive discussion of internal
               control weaknesses and procedures.

               The Unit did not report the identities of all convicted
               providers to OIG within 30 days of sentencing for the
               purpose of program exclusion
               According to Performance Standard 8, Units should send to OIG, for
               purposes of program exclusions under section 1128 of the SSA, reports of
               convictions and copies of Judgment and Sentence or other acceptable
               documentation within 30 days or other reasonable time period.



               25
                    No underclaimed or overclaimed expenditures were identified for FY 2011.



Kansas State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00200)                 8
               During our review, we verified that between November 2008 and
               April 2011, the Kansas Unit failed to report 13 of 39 health care providers
               convicted of fraud, abuse, or neglect within 30 days of sentencing. 26
               These individuals could potentially have received reimbursement from
               Medicaid and Medicare after their convictions; however, we identified no
               such payments.
               The Unit director explained that from November 2008 through April 2011,
               the Unit designated an individual to handle the exclusion paperwork and
               submissions to the Healthcare Integrity and Protection Data Bank. That
               individual left in July 2011. In April 2012, during our onsite review, the
               failure to report the identities of convicted providers was identified and
               information sent to the OIG for exclusion.

               The Unit did not establish annual training plans for its
               professional disciplines
               According to Performance Standard 12, the Unit should establish annual
               training plans for each professional discipline. The training provided
               under these plans should aid in the mission of the Unit and could be useful
               in providing a coordinated approach for the professional development of
               staff. At the time of our onsite review, managers reported that they had
               not established annual training plans for any of the three professional
               disciplines. 27 In 2007, the Unit created a training record form for each
               staff member to document completion of individual training. Unit
               management indicated that the process initially worked well, but the form
               fell out of use. However, the Unit has provided all staff with training
               opportunities to expand the skills and techniques they need to understand
               and perform their duties. 28 All new employees are provided introductory
               Medicaid training through the National Association of Medicaid Fraud
               Control Units Medicaid 101 training, and take advantage of other training
               related to fraud trends and financial investigation techniques as it becomes
               available. Unit management reported that despite cost concerns and a lack
               of regional training opportunities that fit the unique needs of their staff, all


               26
                  We included all referrals received within 30 business days as meeting the performance
               standard. One of the 13 health care providers not reported was referred 55 days after
               sentencing; the others were referred later. All referrals were made by the conclusion of the
               onsite review.
               27
                  Although we reviewed training records, we did not evaluate the staff’s professional
               qualifications. Rather, we applied the performance standards to evaluate whether the Unit
               maintained a formal training plan for each professional discipline and assessed training
               opportunities specific to Unit operations. We recognize that attorneys, investigators, and
               auditors receive professional and law enforcement training, and that the lack of an annual
               training plan does not suggest that professional staff are unqualified.
               28
                  Kansas Attorney General’s Medicaid Fraud and Abuse Division Annual Report 2010–11.



Kansas State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00200)                                9
               law enforcement training hours were met. The Unit’s annual report also
               demonstrated that attorneys received necessary continuing legal education.

               Case files had inconsistent documentation of
               supervisory approval for key stages of investigations,
               yet cases generally proceeded timely
               According to Performance Standard 6, the Unit should have a continuous
               case flow and cases should be completed in a reasonable time. As a part
               of this effort, managers should approve the opening and closing of cases
               and document any supervisory case reviews in the case file. Twenty-three
               percent of case files lacked documented supervisory approval detailing the
               opening of the investigation, and 16 percent of closed files were missing
               documented supervisory approval for closing the case. Unit management
               stated that Pharmaceutical Average Wholesale Price and Global
               Pharmaceutical cases did not have signed supervisory approval due to the
               nature of the cases (i.e., these cases were typically nationwide cases).
               Excluding these types of cases, 11 percent of opening investigations and
               5 percent of closed cases lacked supervisory approval. The performance
               standard does not differentiate between types of cases requiring
               supervisory approval.
               Performance Standard 6 also states that supervisory reviews should be
               “conducted periodically and noted in the case file.” The Unit’s policy is to
               conduct a periodic supervisory review every 6 months on all open cases.
               Of the 42 percent of cases open longer than 6 months, 19 percent lacked
               documentation of periodic 6-month supervisory reviews. 29 See
               Appendix F for sample sizes and 95-percent confidence intervals
               associated with point estimates.
               Although several of the case files lacked opening or closing approvals and
               supervisory reviews, only one of the cases we reviewed experienced
               unreasonable delays. Criminal investigations, including filing of criminal
               charges, seeking restitution without filing criminal charges, and closing
               the case without filing criminal charges or seeking restitution, were all
               processed timely. Criminal and civil prosecutions were also processed
               timely.




               29
                  For the purposes of this report, supervisory approval to open and close a case does not
               constitute a case file “review.” Periodic supervisory review indicates that a supervisor
               reviewed a case more than once between the opening and closing of the case.


Kansas State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00200)                              10
               CONCLUSION AND RECOMMENDATIONS
               For FYs 2009 through 2011, the Unit reported combined civil and criminal
               recoveries of nearly $66 million and 44 convictions. The Unit increased
               referrals through education and outreach efforts. Our review found no
               evidence of significant noncompliance with applicable laws, regulations,
               or policy transmittals.
               However, our review found opportunities for improvement and instances
               in which the Unit did not fully meet the performance standards.
               Specifically, for FYs 2009 and 2010, the Unit had several internal control
               weaknesses and inadequate policies and procedures related to certain
               expenditures. For FYs 2009 through 2011, the Unit did not report the
               identities of all convicted providers to OIG within 30 days of sentencing
               for the purpose of program exclusion, and did not establish annual training
               plans. Similar to the findings from 2007, the Unit’s case files lacked
               documentation of supervisory approval for key stages of the investigative
               process, although the cases were adequately developed.
               Based on these findings, we recommend that the Kansas Unit:
               Develop Policies and Procedures To Address Internal Control
               Weaknesses
               The Unit should ensure that expenditures claimed are reconciled to
               accounting records, and that expenditures are allocated and claimed in
               accordance with Federal regulations.
               Develop a Protocol To Ensure Identities of Convicted
               Providers Are Reported to OIG
               The Unit should ensure that individuals convicted of fraud, abuse, and
               neglect are reported within 30 days of their sentencing.
               Establish Annual Training Plans for Professional Disciplines
               The Unit should develop plans that indicate the type and duration of
               training for each professional discipline. The Unit may work with OIG to
               identify additional relevant training opportunities for staff.
               Ensure That All Case Files Contain Opening and Closing
               Investigative Memoranda, Documented Supervisory Approval,
               and Documented Periodic Supervisory Reviews

               UNIT COMMENTS AND OFFICE OF INSPECTOR GENERAL
               RESPONSE
               The Unit concurred with the four report recommendations. Regarding our
               first recommendation, the Unit has been working to identify and improve
               internal control weaknesses, including: reconciling expenditures, vehicle


Kansas State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00200)          11
               costs, fringe benefits, and indirect costs. With respect to reconciling
               expenditures, changes have been made and implemented by the Attorney
               General’s Office and the Unit to avoid this reporting situation in the
               future. Further, the Unit is working to reconcile FYs 2009 and
               2010 expenditures and is working with OIG to amend its financial
               reporting accordingly. With respect to vehicle costs, as of June 2012,
               non-Unit employees are no longer permitted to use Unit vehicles for any
               purpose. With respect to fringe benefits, the Unit has worked closely with
               the Budget Division of the Attorney General’s Office to develop a system
               of checks and balances to ensure that receipts and expenditures are
               properly accounted. With respect to indirect costs, efforts are underway to
               train current Unit and Budget Division staff to ensure that proper indirect
               cost rates are utilized and that all allowable expenditures are claimed for
               the Unit. The Unit and Budget Division staff will work closely to ensure
               that proper indirect costs are submitted.
               Regarding our second recommendation, the Unit acknowledged that there
               were a number of providers for which exclusion paperwork was not
               submitted to OIG timely. A report will be provided to the Unit director
               monthly allowing for verification that each conviction is being reported in
               a timely fashion or that there is a satisfactory explanation for any delay.
               Regarding our third recommendation, the Unit is currently working with
               the administration to develop a training plan that will not only serve to
               meet the demands of the performance standards, but may also be utilized
               by the Attorney General’s Office for other professional staff.
               Regarding our fourth recommendation, the Unit will prepare opening and
               closing memoranda, as well as periodic case file reviews for all Global
               and Average Wholesale Price cases. Opening memoranda will be created
               for all cases currently open. A staff member has been assigned to develop
               a case file review form that can be automatically generated for each case.
               The full text of the Unit’s comments is provided in Appendix G. We
               modified the number of exclusions not reported timely to the OIG from
               30 to 13 based on additional documentation that the Unit provided. One
               of the 13 health care providers not reported was referred 55 days after
               sentencing; the rest were referred during our onsite review.




Kansas State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00200)           12
               APPENDIX A
               Performance Standards
               [59 Fed. Reg. 49080, Sept. 26, 1994]
               1. A Unit will be in conformance with all applicable statutes,
                  regulations and policy transmittals. In meeting this standard, the
                  Unit must meet, but is not limited to, the following requirements:
                  a. The Unit professional staff must consist of permanent employees
                     working full-time on Medicaid fraud and patient abuse matters.
                  b. The Unit must be separate and distinct from the single State
                     Medicaid agency.
                  c. The Unit must have prosecutorial authority or an approved formal
                     procedure for referring cases to a prosecutor.
                  d. The Unit must submit annual reports, with appropriate
                     certifications, on a timely basis.
                  e. The Unit must submit quarterly reports on a timely basis.
                  f. The Unit must comply with the Americans with Disabilities Act,
                     the Equal Employment opportunity requirements, the Drug Free
                     workplace requirements, Federal lobbying restrictions, and other
                     such rules that are made conditions of the grant.
               2. A Unit should maintain staff levels in accordance with staffing
                  allocations approved in its budget. In meeting this standard, the
                  following performance indicators will be considered:
                  a. Does the Unit employ the number of staff that was included in the
                     Unit's budget as approved by the OIG?
                  b. Does the Unit employ the number of attorneys, auditors, and
                     investigators that were approved in the Unit's budget?
                  c. Does the Unit employ a reasonable size of professional staff in
                     relation to the State's total Medicaid program expenditures?
                  d. Are the Unit office locations established on a rational basis and are
                     such locations appropriately staffed?
               3. A Unit should establish policies and procedures for its operations,
                  and maintain appropriate systems for case management and case
                  tracking. In meeting this standard, the following performance
                  indicators will be considered:
                  a. Does the Unit have policy and procedure manuals?




Kansas State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00200)          13
                  b. Is an adequate, computerized case management and tracking
                     system in place?
               4. A Unit should take steps to ensure that it maintains an adequate
                  workload through referrals from the single State agency and other
                  sources. In meeting this standard, the following performance
                  indicators will be considered:
                  a. Does the Unit work with the single State Medicaid agency to
                     ensure adequate fraud referrals?
                  b. Does the Unit work with other agencies to encourage fraud
                     referrals?
                  c. Does the Unit generate any of its own fraud cases?
                  d. Does the Unit ensure that adequate referrals of patient abuse
                     complaints are received from all sources?
               5. A Unit’s case mix, when possible, should cover all significant
                  provider types. In meeting this standard, the following performance
                  indicators will be considered:
                  a. Does the Unit seek to have a mix of cases among all types of
                     providers in the State?
                  b. Does the Unit seek to have a mix of Medicaid fraud and Medicaid
                     patient abuse cases?
                  c. Does the Unit seek to have a mix of cases that reflect the
                     proportion of Medicaid expenditures for particular provider
                     groups?
                  d. Are there any special Unit initiatives targeting specific provider
                     types that affect case mix?
                  e. Does the Unit consider civil and administrative remedies when
                     appropriate?
               6. A Unit should have a continuous case flow, and cases should be
                  completed in a reasonable time. In meeting this standard, the
                  following performance indicators will be considered:
                  a. Is each stage of an investigation and prosecution completed in an
                     appropriate time frame?
                  b. Are supervisors approving the opening and closing of
                     investigations?
                  c. Are supervisory reviews conducted periodically and noted in the
                     case file?



Kansas State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00200)            14
               7. A Unit should have a process for monitoring the outcome of cases.
                  In meeting this standard, the following performance indicators will be
                  considered:
                  a. The number, age, and type of cases in inventory.
                  b. The number of referrals to other agencies for prosecution.
                  c. The number of arrests and indictments.
                  d. The number of convictions.
                  e. The amount of overpayments identified.
                  f. The amount of fines and restitution ordered.
                  g. The amount of civil recoveries.
                  h. The numbers of administrative sanctions imposed.
               8. A Unit will cooperate with the OIG and other federal agencies,
                  whenever appropriate and consistent with its mission, in the
                  investigation and prosecution of health care fraud. In meeting this
                  standard, the following performance indicators will be considered:
                  a. Does the Unit communicate effectively with the OIG and other
                     Federal agencies in investigating or prosecuting health care fraud
                     in their State?
                  b. Does the Unit provide OIG regional management, and other
                     Federal agencies, where appropriate, with timely information
                     concerning significant actions in all cases being pursued by the
                     Unit?
                  c. Does the Unit have an effective procedure for referring cases,
                     when appropriate, to Federal agencies for investigation and other
                     action?
                  d. Does the Unit transmit to the OIG, for purposes of program
                     exclusions under section 1128 of the Social Security Act, reports
                     of convictions, and copies of Judgment and Sentence or other
                     acceptable documentation within 30 days or other reasonable time
                     period?
               9. A Unit should make statutory or programmatic recommendations,
                  when necessary, to the State government. In meeting this standard,
                  the following performance indicators will be considered:
                  a. Does the Unit recommend amendments to the enforcement
                     provisions of the State's statutes when necessary and appropriate to
                     do so?



Kansas State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00200)           15
                  b. Does the Unit provide program recommendations to single State
                     agency when appropriate?
                  c. Does the Unit monitor actions taken by State legislature or State
                     Medicaid agency in response to recommendations?
                10. A Unit should periodically review its memorandum of
                    understanding (MOU) with the single State Medicaid agency and
                    seek amendments, as necessary, to ensure it reflects current law
                    and practice. In meeting this standard, the following performance
                    indicators will be considered:
                  a. Is the MOU more than 5 years old?
                  b. Does the MOU meet Federal legal requirements?
                  c. Does the MOU address cross-training with the fraud detection staff
                     of the State Medicaid agency?
                  d. Does the MOU address the Unit’s responsibility to make program
                     recommendations to the Medicaid agency and monitor actions
                     taken by the Medicaid agency concerning those recommendations?
               11. The Unit director should exercise proper fiscal control over the
                   Unit resources. In meeting this standard, the following performance
                   indicators will be considered:
                  a. Does the Unit director receive on a timely basis copies of all fiscal
                     and administrative reports concerning Unit expenditures from the
                     State parent agency?
                  b. Does the Unit maintain an equipment inventory?
                  c. Does the Unit apply generally accepted accounting principles in its
                     control of Unit funding?
               12. A Unit should maintain an annual training plan for all
                   professional disciplines. In meeting this standard, the following
                   performance indicators will be considered:
                  a. Does the Unit have a training plan in place and funds available to
                     fully implement the plan?
                  b. Does the Unit have a minimum number of hours training
                     requirement for each professional discipline, and does the staff
                     comply with the requirement?
                  c. Are continuing education standards met for professional staff?
                  d. Does the training undertaken by staff aid to the mission of the
                     Unit?



Kansas State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00200)           16
               APPENDIX B
               Population and Sample Distribution of Case Files Open Any
               Time During Fiscal Years 2009 Through 2011


                                                   Population       Sample     Population        Sample
                Data Element Description
                                                    (number)      (number)   (percentage)   (percentage)

                Fraud—Civil (Open)                          29          5           6.5%             5%

                Fraud—Civil (Closed)                        21          5           4.7%             5%

                Fraud—Criminal (Open)                       76         15          16.9%            15%

                Fraud—Criminal (Closed)                    165         39          36.7%            39%

                Fraud—Global (Open)                         41          9           9.1%             9%

                Fraud—Global (Closed)                       37          6           8.2%             6%

                Abuse—Criminal (Open)                        0          0           0.0%             0%

                Abuse—Criminal (Closed)                     28          6           6.2%             6%

                Patient Funds-—Criminal (Open)               9          1           2.0%             2%

                Patient Funds—Criminal (Closed)             43         14           9.6%            14%

                  Total                                    449        100          100%           100%

              Source: Kansas Medicaid Fraud Control Unit, 2012.




Kansas State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00200)                       17
                     APPENDIX C
                     Investigations Opened and Closed by Provider Category for
                     Fiscal Years 2009 Through 2011
Table C-1: Fraud Investigations

 Provider Category                                   FY 2009           FY 2010            FY 2011
 Facilities                                    Opened     Closed    Opened   Closed   Opened   Closed
     Hospitals                                        1         0        1        2        0             0
     Nursing Facilities                               0         0        1        2        0             0
     Other Long-Term Care Facilities                  0         0        0        0        0             0
     Substance Abuse Treatment
                                                      1         0        1        2        1             0
     Centers
     Other                                            1         3        0        0        0             0
 Practitioners                                 Opened     Closed    Opened   Closed   Opened   Closed
    Doctors of Medicine or
                                                      2         1        1        2        1             1
    Osteopathy
    Dentists                                          1         2        0        1        0             0
     Podiatrists                                      0         0        0        0        0             0
     Optometrists/Opticians                           0         0        0        0        0             0
     Counselors/Psychologists                         1         1        0        1        1             0
     Chiropractors                                    0         0        0        0        0             0
     Other                                            1         0        1        1        0             0
 Medical Support                               Opened     Closed    Opened   Closed   Opened   Closed
     Pharmacies                                       3         3        0        1        2             0
     Pharmaceutical Manufacturers                    38         1       34       22       15         19
     Durable Medical Equipment
                                                      0         0        3        3        2             2
     and/or Supplies
     Labs                                             0         0        0        0        0             0
     Transportation Services                          4         8        0        5        2             4
     Home Health Care Agencies                        5         3        8        9        5             4
     Home Health Care Aides                          31        22       22       26       48         38
     Nurses, Physician Assistants,
     Nurse Practitioners, Certified                   1         1        7        7        1             2
     Nurse Aides
     Radiologists                                     0         0        0        0        0             0
     Medical Support—Other                            2         0        0        0        1             1
 Program Related                               Opened     Closed    Opened   Closed   Opened   Closed
     Managed Care                                     0         0        0        0        1             0
     Medicaid Program
                                                      0         0        0        0        0             0
     Administration
     Billing Company                                  1         2        1        1       15             0
     Other                                            0         0        0        0        0             0
       Total Provider Categories                     93        47       80       85       95         71
Source: Kansas Medicaid Fraud Control Unit (Unit).
FY = fiscal year.



  Kansas State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00200)                    18
Table C-2: Patient Abuse, Neglect, and Funds Investigations

 Provider Category                     FY 2009           FY 2010              FY 2011
                                    Opened   Closed   Opened      Closed   Opened     Closed
    Nursing Facility                     0        1           0        1          1        0
    Nondirect Care                       3        2           1        3          5        3
    Other Long-Term Care                 0        0           0        1          0        0
    Nurses/Physician’s
    Assistant/Nurse Practitioner/       12        2           3       12          0        2
    Certified Nurse Aides
    Home Health Aides                    0        0           0        0          1        0
    Other                               13        8       12          11          8       16
      Total                             28       13       16          28         15       21
Source: Kansas Unit.




Kansas State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00200)            19
                          APPENDIX D
                          Medicaid Fraud Control Unit Referrals by Provider Category
                          for Fiscal Years 2009 Through 2011
                                           FY 2009                              FY 2010                             FY 2011
                                            Abuse                                Abuse                               Abuse
                                                   Patient                              Patient                                    Patient
 Referral Source                Fraud           &                    Fraud           &                   Fraud           &
                                                   Funds                                Funds                                      Funds
                                           Neglect                              Neglect                             Neglect
 Kansas
 Department of Social
 and Rehabilitation
                                     12             0           0          2            0           1          3              0         0
 Services –
 Surveillance and
 Utilization Review Unit
 Kansas
 Department of Social
                                     14             6           3          3            0           1         39              2         2
 and Rehabilitation
 Services – Other
 State Survey &
                                      0             0           0          0            0           0          0              0         0
 Certification

 Other State Agencies                 0             4           0          1            3           0         17           22           3

 Licensing Board                      1             0           0          0            0           0          0              0         0
 Law Enforcement                      2             0           9          0            0           4          5              1         3
 Office of Inspector
                                      0             0           0          1            0           0          1              0         0
 General (OIG)
 Prosecutors                          3             0           1          0            0           1          5              0         3
 Providers                            3             0           0          0            0           0         22              0         0

 Provider Associations                0             0           0          0            0           0          3              0         0

 Private Health Insurer               0             0           0          0            0           0          0              0         0

 Long Term Care
                                      0             0           0          0            0           0          0              0         0
 Ombudsman
 Adult Protective
                                      1             0           3          0            0           0          4              0         2
 Services
 Private Citizens                    24             0           1        26             2           1         69              3         7
 MFCU Hotline                         0             0           0          0            0           0          0              0         0
 Other                               32             2           0          0            0           0         13              1         0
   Total                             92           12          17         33             5           8       181            29          20
   Annual Total                                              121                                   46                                 230
Source: OIG analysis of Kansas Medicaid Fraud Control Unit (MFCU) Quarterly Statistical Reports, fiscal years 2009 through 2011.




      Kansas State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00200)                                     20
               APPENDIX E
               Expanded Information on Internal Control Weaknesses and
               Inadequate Policies and Procedures Related to Certain
               Expenditures
               The following material describes in detail the internal control weaknesses
               identified.
               Expenditures Claimed for Federal Reimbursement Did Not
               Reconcile to the Accounting Records
               Federal regulations (45 CFR § 92.20(a)) state: Fiscal control and
               accounting procedures of the State … must be sufficient to—
                      (1) Permit preparation of reports required by this part and the
                      statutes authorizing the grant, and
                      (2) Permit the tracing of funds to a level of expenditures adequate
                      to establish that such funds have not been used in violation of the
                      restrictions and prohibitions of applicable statutes.
               Federal regulations (45 CFR § 92.20(b)) require financial management
               systems to meet the following standards:
                      (1) Financial reporting. Accurate, current, and complete disclosure
                      of the financial results of financially assisted activities must be
                      made in accordance with the financial reporting requirements of
                      the grant or subgrant.
                      (2) Accounting records. Grantees and subgrantees must maintain
                      records which adequately identify the source and application of
                      funds provided for financially-assisted activities. These records
                      must contain information pertaining to grant or subgrant awards
                      and authorizations, obligations, unobligated balances, assets,
                      liabilities, outlays or expenditures, and income.
               Contrary to Federal regulations, expenditures claimed for Federal
               reimbursement on the SF-269 reports in fiscal years 2009 and 2010 did not
               reconcile to the Medicaid Fraud Control Unit’s (Unit) accounting records.
               As a result, the Unit underclaimed expenditures in FY 2009 by $22,611
               ($18,243 Federal share) and overclaimed expenditures in FY 2010 by
               $25,925 ($19,444 Federal share).
               The Unit did not have policies and procedures in place to ensure that the
               expenditures claimed on the SF-269 reports reconciled to its accounting
               records. A Unit official stated that policies and procedures are being put
               in place to ensure expenditures claimed in the future reconcile to the
               accounting records.


Kansas State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00200)              21
               Expenditures Claimed for Vehicle Costs Were Not Properly
               Allocated
               Federal regulations at 2 CFR pt. 225, Appendix A, (C)(3)(a), state: “A
               cost is allocable to a particular cost objective if the goods or services
               involved are chargeable or assignable to such cost objective in accordance
               with relative benefits received.”
               Contrary to Federal regulations, the Unit did not properly allocate vehicle
               maintenance costs. Specifically, the Unit allowed the State Attorney
               General’s Office to use the Unit’s vehicles during FY 2011; this use
               totaled approximately 25 percent of the mileage accumulated on these
               vehicles. However, the Unit claimed all the vehicle maintenance costs for
               Federal reimbursement instead of allocating 25 percent of the costs to the
               State Attorney General’s Office. As a result, the Unit overclaimed
               expenditures for vehicle maintenance in FY 2011 by an estimated
               $631 ($473 Federal share).
               The Unit did not have policies and procedures in place to ensure that
               expenditures were allocated in accordance with Federal regulations. A
               Unit official said that the State Attorney General’s Office paid for fuel and
               tolls when using the Unit’s vehicles and therefore, the Unit did not believe
               it was necessary to allocate the costs.
               Expenditures for Fringe Benefits Not Claimed
               Federal regulations (45 CFR § 92.20(b)) require financial management
               systems to meet the following standards:
                      (1) Financial reporting. Accurate, current, and complete disclosure
                      of the financial results of financially assisted activities must be
                      made in accordance with the financial reporting requirements of
                      the grant or subgrant.
                      (2) Accounting records. Grantees and subgrantees must maintain
                      records which adequately identify the source and application of
                      funds provided for financially-assisted activities. These records
                      must contain information pertaining to grant or subgrant awards
                      and authorizations, obligations, unobligated balances, assets,
                      liabilities, outlays or expenditures, and income.
               Contrary to Federal regulations, the Unit did not claim all allowable fringe
               benefit expenditures. Specifically, the Unit did not claim expenditures for
               fringe benefits (employer portion of health benefits) for 3 months during
               FY 2009. As a result, the Unit underclaimed fringe benefit expenditures
               in FY 2009 by an estimated $47,982 ($35,986 Federal share).
               The Unit did not have policies and procedures in place to ensure that all
               allowable expenditures were claimed for Federal reimbursement. A Unit


Kansas State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00200)           22
               official stated that policies and procedures are being put in place to ensure
               that all allowable expenditures are claimed in the future.
               Expenditures for Indirect Costs Not Claimed
               Federal regulations at 2 CFR pt. 225, Appendix E (B)(7), states:
               “‘Provisional rate’ means a temporary indirect cost rate applicable to a
               specified period which is used for funding, interim reimbursement, and
               reporting indirect costs on Federal awards pending the establishment of a
               ‘final’ rate for that period.”
               With respect to the final rate, 2 CFR pt. 225, Appendix E (B)(8),
               states: “‘Final rate’ means an indirect cost rate applicable to a specified
               past period which is based on the actual allowable costs of the period. A
               final audited rate is not subject to adjustment.”
               Contrary to Federal regulations, the Unit did not claim all allowable
               indirect costs. Specifically, the Unit used the provisional rate of
               16.2 percent and did not change to the final rate of 18.3 percent during
               FYs 2009 and 2010. As a result, the Unit underclaimed indirect costs in
               FYs 2009 and 2010 by $16,315 ($12,236 Federal share).
               The Unit did not have policies and procedures in place to ensure that all
               allowable expenditures were claimed for Federal reimbursement. A Unit
               official stated that policies and procedures are being put in place to ensure
               that all allowable expenditures are claimed in the future.
               Internal Control Weaknesses
               Although the Unit’s internal controls were adequate to ensure that the
               majority of the expenditures that the Unit claimed and that we reviewed
               for this audit period were claimed correctly, we noted some internal
               control weaknesses and inadequate policies and procedures as described
               throughout the report. These could result in the Unit’s reporting incorrect
               expenditures for Federal reimbursement.




Kansas State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00200)            23
                    APPENDIX F
                    Point Estimates and Confidence Intervals Based on Case File
                    Reviews
                    We calculated confidence intervals for key data points for the case file
                    reviews. The sample sizes, point estimates, and 95-percent confidence
                    intervals are given for the each of the following:


Table F-1: Confidence Intervals for Case File Review Data
                                                                     Point
                                               Sample                                    95-Percent Confidence
 Data Element Description                                         Estimate
                                                 Size                                                  Interval
                                                              (percentage)
 Case files missing supervisory
 approval for the opening of                        100                   23.0                       16.4–31.2
 investigations

 Case files missing documented
 supervisory approval for the                        70                   15.7                        9.5–25.0
 closing of investigations
 Case files missing documented
 periodic supervisory reviews (for
                                                     42                   19.1                       10.6–31.2
 cases open longer than
 6 months)

 Case files missing supervisory
 approval for the opening of
 investigations (excluding Global                    76                   10.5                        5.8–18.5
 and Average Wholesale Price
 cases)

 Case files missing documented
 supervisory approval for the
 closing of investigations                           59                    5.1                        1.9–13.2
 (excluding Global and Average
 Wholesale Price cases)
Source: Office of Inspector General analysis of Medicaid Fraud Control Unit case files, 2012.




Kansas State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00200)                               24
               APPENDIX G
               Unit Comments




Kansas State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00200)   25
Kansas State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00200)   26
Kansas State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00200)   27
Kansas State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00200)   28
Kansas State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00200)   29
Kansas State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00200)   30
Kansas State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00200)   31
Kansas State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00200)   32
Kansas State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00200)   33
Kansas State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00200)   34
               ACKNOWLEDGMENTS
               This report was prepared under the direction of Brian T. Pattison, Regional
               Inspector General for Evaluation and Inspections in the Kansas City
               regional office.
               Brian T. Whitley served as the team leader for this study. Other Office of
               Evaluation and Inspections staff who conducted the study include
               Michael J. Brown, Susan Burbach, Teresa Dailey, and Julie Dusold
               Culbertson. Office of Audit Services staff who conducted the study
               include Ann Lowe, Ryan Moul, and Julie Wiser. Office of Investigations
               staff who conducted the study include Randall House. Central office staff
               who provided support include Kevin Farber, Debra Roush, Richard Stern,
               and Jason Weinstock.




Kansas State Medicaid Fraud Control Unit: 2012 Onsite Review (OEI-07-12-00200)         35
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
